<html>
<title> - IS THE RAILROAD RETIREMENT BOARD DOING ENOUGH TO PROTECT AGAINST FRAUD?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










IS THE RAILROAD RETIREMENT BOARD DOING ENOUGH TO PROTECT AGAINST FRAUD?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2015

                               __________

                           Serial No. 114-23

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                     
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-176 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
               Alexa Armstrong Professional Staff Member
                           Sarah Vance, Clerk
                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 1, 2015......................................     1

                               WITNESSES

The Hon. Martin J. Dickman, Inspector General, Railroad 
  Retirement Board
    Oral Statement...............................................     5
    Written Statement............................................     7
The Hon. Michael S. Schwartz, Chairman, Railroad Retirement Board
    Oral Statement...............................................    30
    Written Statement............................................    32
Mr. Daniel Bertoni, Director, Education, Workforce, and Income 
  Security, Government Accountability Office
    Oral Statement...............................................    38
    Written Statement............................................    40

                                APPENDIX

Questions from Chairman Meadows..................................    84

 
IS THE RAILROAD RETIREMENT BOARD DOING ENOUGH TO PROTECT AGAINST FRAUD?

                              ----------                              


                          Friday, May 1, 2015

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. Mark Meadows 
(chairman of the subcommittee) presiding.
    Present: Representatives Meadows, Walberg, Mulvaney, 
Carter, Grothman, Connolly, and Maloney.
    Also present: Representatives Palmer and Mica.
    Mr. Meadows. The Subcommittee on Government Operations will 
come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    I ask unanimous consent that our colleagues Mr. Mica and 
Mr. Palmer be allowed to fully participate in today's hearing.
    Without objection, so ordered.
    I now recognize Mr. Connolly, the ranking member of the 
Subcommittee on Government Operations, for his opening 
Statement.
    I will let you go first, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    And thanks for calling this hearing on a day when we're out 
of session.
    For over a century, the railway industry has supported 
thousands of well-paying jobs across our Nation, including more 
than 16,000 railroad workers and retirees in the Commonwealth 
of Virginia. We all ought to be proud of this American success 
story.
    The Railroad Retirement Board was created in the 1930's to 
administer retirement, unemployment, sickness, and survivor 
benefit programs for railroad workers and their families. In 
that era, railroad workers had a well developed pension plan 
but sought to expand it to a national retirement system because 
Social Security was still in the planning stages. The results 
of those workers' efforts and legislation is what we see today, 
one of the largest pension funds, worth more than $26 billion 
last year. The most impressive aspect of this retirement plan 
is that it is solely funded by fees collected from railroad 
workers and rail employees. In fact, railroad workers have 
historically had more money deducted from their paychecks to 
pay for their retirement than most individuals contribute to 
Social Security for theirs.
    The bottom line is that the RRB is responsible for 
administering a vital safety net that Is only funded by and 
only benefits America's railroad workers and families who are 
not eligible to claim Social Security benefits. Today we're 
here to discuss oversight of disability benefits programs 
provided by the railroad retirement system. Concerns have 
legitimately been raised about the vulnerability for fraud in 
those programs. This is an important discussion because it's 
against the background of the Long Island Rail Road retiree 
fraud, in which the RRB and its inspector general initially 
failed to detect widespread false claims for occupational 
disability benefits.
    Fortunately, a team consisting of the Department of Justice 
and the OIG was eventually able to uncover the fraud and bring 
those responsible to justice. Let's be clear, all stakeholders 
abhor and condemn in the strongest possible terms the massive 
fraud perpetrated by LIRR retirees, doctors, and disability 
facilitators. In fact, railroad workers and their families were 
likely the most outraged about it since it's their money that 
solely funds the RRB-administered pension fund, and, 
ultimately, any theft from that fund comes out of their 
pockets. Indeed, no group in America has a greater incentive to 
enhance RRB's ability to detect and prevent disability fraud 
than our Nation's railroad workers since it's their money, and 
theirs alone, which will rise to compensate for any theft from 
the fund.
    In 2014, GAO found that the RRB is at risk for making 
improper payments to individuals who did not qualify for 
occupational disability benefits because there's no systematic 
way to evaluate potential fraudulent claims or prevent fraud. 
GAO also found that the RRB was not sufficiently committed to 
fraud awareness throughout the agency. GAO and the IG has 
produced several recommendations to improve the integrity of 
the disability programs. And it's important to note the RRB is 
implementing a set of initiatives to strengthen fraud detection 
and prevention pursuant to GAO recommendations.
    For example, the RRB now requires independent medical exams 
for all disability applicants, as opposed to relying on medical 
evidence submitted by the applicant. The RRB is also expanding 
its fraud awareness training beyond its headquarters to apply 
to all staff. It's important we bring balance to this hearing. 
The vast majority of dedicated and hard-working railroad 
retirees who participate in disability programs are honest and 
deserving recipients of the earned benefits that they and other 
railroad workers solely funded.
    Mr. Chairman, this is personal for me. My mother's side of 
the family were all railroad men. My grandfather made very 
little, didn't have much of a pension, and died prematurely 
because, frankly, of the toxic effects of the exhaust he was 
subjected to every day. My uncles and their uncles were all 
railroad men. And they were hard-working people who certainly 
didn't cheat the system. And I think they were in great 
company.
    I just want to say that because I know from personal 
experience what working on the railroad can be like. And it's 
hard work. And it takes a lot out of the body over a number of 
years. And I hope we--I know you and I hope and certainly 
believe my colleagues will respect that fact.
    As with any program, there are always unscrupulous 
individuals who are dishonest and seek to perpetrate fraud. And 
it's vital we uncover those individuals and bring them to 
justice. However, it would be deeply unfair to presume that the 
majority of participants are dishonest based on those few bad 
actors. Further, we must exercise caution in advancing 
solutions to ensure that we do not adversely impact the 
thousands of railroad retirees who work hard and played by the 
rules, like my grandfather and my uncles. For instance, while 
high approval rates for disability benefits may indicate a 
higher risk of fraud, it's an imprecise indicator. Depending on 
the structure of a given plan, it's also plausible that a 
program might feature high integrity and high approval rates.
    Moving forward, Congress should provide the RRB with a fair 
opportunity to implement the recommendations made by the GAO 
and the IG and gauge how well they are working. By doing so, we 
can avoid punishing the majority of railroad workers who have 
done nothing wrong because of the transgressions of a few; 
protect the National Railroad Retirement Investment Trust that 
is funded by our Nation's hard-working railroad workers.
    I look toward to the testimony of our witnesses today. And 
I thank the chair for his courtesy.
    Mr. Meadows. I thank the gentleman from Virginia.
    And rarely do we share the same kind of background that we 
do today. Actually, my grandfather worked on the railroad for 
security in Pine Bluff, Arkansas. There was never a more honest 
individual or a hard-working individual. In addition, I have 
one of my dearest friends, Forrest Jarrett, who is a retired 
security gentleman from one of the rail industries. And he's 
admonished me: Whatever you do, be good to the guys that work 
on the rail.
    And so it is with that in mind that not only do we hold 
this hearing but that we look to address some of the bad actors 
as the ranking member is talking about. We're here really today 
to perform one of the committee's core function, and that is 
protecting the taxpayer dollars from waste and fraud. And, in 
this case, we're also trying to protect the wallets of every 
single railroad customer in the country.
    And the chain of events that brought us here today actually 
started in the late 1990's when a group of doctors, RRB 
employees, and union officials, and railroad workers in the New 
York area conspired to defraud the Railroad Retirement Board--
or its disability program. And this fraud scheme that they 
cooked up was fairly simple: Union officials and RRB employees 
connected some railroad employees with crooked doctors who sold 
phoney paperwork for cash in my opinion. And the railroad 
employees took phoney paperwork to the RRB to support their 
claims for disability payments. Now, unlike the gentleman to my 
right's grandparents and relatives and my grandfather--we 
couldn't imagine that happening from somebody in our family. 
And so that is what has brought us here today. By the time they 
were caught, the fraud ring resulted in the RRB awarding $1 
billion worth of bogus disability claims.
    As we're going to hear from two of our witnesses today, the 
RRB remains at risk for similar scams still today. If we could 
start the video please. What we're about to look at here is a 
Long Island Rail Road employee who was simultaneously earning a 
fifth degree black belt in jujitsu. Now, when this video was 
filmed, the man was collecting occupational disability benefits 
from the RRB.
    [Video shown.]
    Mr. Meadows. And, according to this man's disability 
application, he suffered from severe pain in his shoulder, 
lower back, and neck. Maybe it's because of all of this 
activity. He claimed the pain was so severe that he had a 
difficult time standing, sitting, walking, bathing, and 
dressing. And the RRB claim examiner determined that he was no 
longer capable of performing his job because of his physical 
condition.
    I would ask each one of you, what do you think?
    Had the RRB claims examiner had access to this video, I 
hope that things would have turned out differently. But, even 
still, without the video, there would have been other things 
that should have struck the examiner as odd. For example, in 
his last 17 months as a railroad employee, he worked about 
1,500 hours of overtime, including the day before he retired 
with disability working overtime. He claimed that he had 
trouble doing the basic tasks, to manage the work, massive 
amount of overtime until the very last day of retiring. But the 
RRB claimed that examiners don't ask those sort of questions. 
As the inspector general will tell us, they just rubber stamp 
it.
    Now, the man in the video was only one of many individuals 
involved in this fraud scheme. There were others who were 
observed by the investigators competing in golf tournaments, 
playing tennis, participating in a 400-mile bike ride, and even 
hiking Mount Kilimanjaro. The RRB's disability benefits program 
is a crucial safety net for rail workers who are injured due to 
the demanding nature of the job. And we must protect it from 
fraud so that it can serve those who suffer from legitimate 
disabilities.
    Now, all of this came to light in 2008. And the IG began 
making immediate recommendations addressing the potential areas 
that undermine the disability application process. And the 
first of the IG's recommendations was in 2008. And, since that 
time, the IG has issued nearly 70 other recommendations in 
response to the Long Island Rail Road fraud scheme. Yet, 
according to the IG, it appears that only 5, get that, 5 of 70 
recommendations have been fully implemented. February of last 
year, the inspector general issued a 7-day letter. Now, a 7-day 
letter is kind of a last-resort tool that the inspector 
generals use. It's kind of basically like the government's 
equivalent of pulling a fire alarm, saying, Wait, we got a real 
problem here.
    So what's the fire? Well, the national approval rate for 
disability applications remains just as high as it was when the 
LIRR fraud scheme was bilking the RRB out of billions of 
dollars.
    Sounds like not much has changed. And I look forward to 
hearing from Mr. Dickman and Mr. Bertoni about the problems 
that they have identified and about their recommendations to 
fix those problems. But what I real want to hear today will 
come from you, Mr. Schwartz. You can tell us why these problems 
still persist and haven't been fixed after all these years. 
More importantly, when can we expect to hear that the RRB is 
finally taking some meaningful actions to ensure that the 
program remains available for those that are truly in need?
    So I would like to thank all the witnesses here today for 
joining us. And I look forward to hearing your testimony. And, 
with that, I want to hold the record open for 5 legislative 
days for any members who would like to submit a written 
Statement.
    Mr. Meadows. We will now recognize the panel of witnesses.
    I'm pleased to welcome the Honorable Martin Dickman, 
inspector general of the Railroad Retirement Board.
    Welcome, Mr. Dickman.
    The Honorable Michael Schwartz, Chairman of the Railroad 
Retirement Board; and Mr. Daniel Bertoni--is that correct? 
Close enough?
    Mr. Bertoni. Close enough.
    Mr. Meadows. Okay. Bertoni, Director of Education, 
Workforce, and Income Security at the Government Accountability 
Office, also known as the GAO.
    Welcome to all of you.
    And, pursuant to committee rules, all witnesses will be 
sworn in before they testify. I'd ask that you please rise and 
raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth? Let the record reflect that all witnesses 
answered in the affirmative. And, in order to allow time for 
discussion, I would ask that your oral testimony be limited to 
5 minutes. Your entire written Statement will be made part of 
the record.
    I would like to go ahead and recognize our first witness, 
Mr. Dickman.

                       WITNESS STATEMENTS

          STATEMENT OF THE HONORABLE MARTIN J. DICKMAN

    Mr. Dickman. Thank you, Chairman Meadows, Ranking Member 
Connolly and members of the committee, thank you for allowing 
me the opportunity to speak to you here today. As an inspector 
general of the Railroad Retirement Board, the basic function of 
an inspector general is to promote economy and efficiency; 
prevent and detect waste, fraud, and abuse of the parent 
agency.
    Pursuant to our 7-day letter and our continuing examination 
of the Railroad Retirement Board's occupational disability 
program starting in 2007, it has been an ongoing educational 
process to us as far as the programs involved by the Railroad 
Retirement Board. And I go into much greater detail about the 
problems and some of the solutions that we have presented, many 
different types of solutions, all the way from eliminating the 
Railroad Retirement Board's occupational disability program to 
limiting it to a 2-year program. And I would be happy to 
explain that later in the conference.
    Drilling down to the core issue, the core issue--and these 
are my views alone. They are not representative of the 
administration or anybody else's. Unless there is a change in 
the culture of the Railroad Retirement Board, this culture of 
we're here to pay, without looking at anything else, without 
even--and they acknowledge it--without even using and acceding 
to the regulations that are in place, as far as finding out the 
job description, as far as doing more of an in-depth analysis 
of the individual's application process, and then we have also 
obviously made recommendations that require change in 
regulations or even some change by the legislature, by the 
Congress. But, basically, it goes to this feeling that, again, 
we're here to pay. And unless that culture is changed, all of 
the money that's going to be spent, the $3.3 million that's 
proposed in the Fiscal Year 2016 budget for program integrity, 
in my opinion, would be a total waste of money.
    And, to us, the proof is in the 98 percent approval rate 
that continues. Other people may say 98 percent, you know, 
they've got--if you looked at the surface of what they have 
done and look at the various programs, you'd say the inspector 
general has to be, you know, he's an idiot because look at what 
we're doing here. We have these doctors that look at these 
people; we'll review this; we'll review that. It's all 
superficial. The doctors look at somebody for 20 minutes. The 
American Medical Association will say to do an in-depth 
examination, a residual functional capacity exam takes 6 to 8 
hours to find out whether the person is lying or not.
    The other portion that really has to change is the 
structure of the Board. I realize and everyone else realizes 
it's a function of collective bargaining between labor and the 
management. Those are the realities of the situation. The big-
ticket items are decided by them. And, in my opinion, you know, 
forget about what the Chairman wants; forget about what 
Congress wants; it's what they want to do. Because they are a 
very powerful force and because, you know, the basic function 
of the railway and how it is intertwined in our economy, that 
if occupational disability is somewhat changed, there would be 
a nationwide rail strike. And everybody knows that.
    But to give the Railroad Retirement Board an opportunity, a 
real opportunity for change, in my opinion, the Board structure 
has to be changed from this troika, where you have a rail 
member, management member, and a Chairman. And the Chairman is 
only Chairman in name only. He has no more power than anybody 
else. So the big ticket items are decided by rail and labor. 
And the Chairman just sits there, tries his best, in my 
opinion, is the most aggressive pushing for change. But the end 
result is, as I have said, we still have this 98 approval rate.
    So, unless something like that is done, then I don't think 
that all this money that's going to be spent is really going to 
make any difference down the road. We could come back here 2 
years from now and we'll still have a 98 percent approval rate.
    I thank you for the opportunity to speak this morning. And, 
again, I would like to thank my staff for doing all the heavy 
lifting in this program and also, as far as concerning the Long 
Island Rail Road case, the U.S. attorney, who took on a very 
difficult case, and the FBI, which also helped tremendously in 
this matter. Thank you.
    [Prepared Statement of Mr. Dickman follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Mr. Meadows. Thank you, Mr. Dickman.
    I would be remiss, I appreciate not only your staff but 
your leadership on this. But I would be remiss if I didn't say 
that we have got a great staff here, both on the majority and 
minority side.
    Mr. Dickman. I agree with that too.
    Mr. Meadows. So much of what we do is actually their hard 
work and certainly not as much ours.
    But we'll go ahead and recognize Mr. Schwartz for 5 
minutes.

         STATEMENT OF THE HONORABLE MICHAEL S. SCHWARTZ

    Mr. Schwartz. Thank you. Chairman Meadows, Ranking Member 
Connolly, and members of the subcommittee, I'm Michael 
Schwartz, and I'm the Chairman of the U.S. Railroad Retirement 
Board. I want to thank you for this opportunity to appear today 
and discuss the railroad retirement disability programs. Walter 
Barrows, representing rail labor; Steven Anthony, representing 
rail employers; and I are responsible for the agency's programs 
and operations.
    Let me begin by saying that my fellow Board members and I 
share in the outrage at the physician-assisted fraud 
perpetrated on the railroad retirement system by certain 
retirees at the Long Island Rail Road. We applaud the efforts 
of our inspector general and the U.S. Attorney's Office for the 
Southern District of New York in investigating and prosecuting 
this fraud.
    The Long Island experience has helped us recognize a number 
of shortcomings in the disability benefit program. We have 
worked tirelessly to examine every step of our disability 
adjudication process and identify those areas that need 
improvement. Today, I'm pleased to report that we have made 
notable strides in strengthening the integrity of this program 
and better protecting our system from fraud. This experience 
has been a true catalyst for the change in the way we do 
business. And we are sincerely committed to effecting real and 
measurable improvements through the initiatives we have put in 
place and those we plan going forward.
    This morning, I will provide the subcommittee with the 
summary of the significant changes we are making. These changes 
were crafted after careful consideration of recommendations by 
our inspector general and the Government Accountability Office 
during their respective reviews of the Board's programs. The 
quality and integrity of our benefit decisions are of the 
upmost importance to the Board and its stakeholders. The 
improvements we are making provide the foundation for a higher 
standard of disability determination. The process we are 
adopting is much different and more comprehensive than what was 
used when the Long Island Rail Road scheme surfaced.
    Independent medical examinations will be required for all 
disability applicants with limited exceptions. And each exam 
will be performed by physicians who specialize in the area of 
the claimed impairment. Contractual positions will now be 
onsite at our headquarters building at least two times a week 
in the Disability Benefits Division to provide medical advice 
and support to claims examiners. Physicians are also providing 
more extensive training to the examiners on medical conditions 
and the interpretation of medical evidence. The Board is 
creating a quality assurance unit to assess the quality of 
medical evidence, accuracy in disability determinations, 
adherence to the established procedures, areas in need of 
improvement, and subject-matter appropriate for refresher 
training.
    We have enhanced our fraud training awareness. The Board 
will continue to procure antifraud training from outside 
sources and make such training mandatory for all agency 
personnel. We will employ contractual medical personnel to 
provide refresher training for those responsible for making or 
reviewing disability decisions, such as claims examiners, 
reconsideration specialists, hearing officers, and quality 
assurance specialists. There will be more frequent contact with 
fraud-risk populations through the expanded use of continuing 
disability reviews for all occupational cases and mandatory 
periodic recertification of disability.
    Senior claims examiners will review all initial disability 
determinations prior to the final rating. Treating physician 
information is already being tracked to identify any suspicious 
activities or patterns. And RRB forms, including a disability 
application, are being reviewed and revised to gather more 
relevant and accurate information.
    Along with these improvements, in December 2013, the Board 
created a fraud task force that assists in implementing 
disability reform measures, along with other benefit-related 
program integrity measures. The task force has approved a 
number of internal modifications to procedures and forms and is 
driving implementation of fraud prevention and detection 
initiatives, many of which were recommended by the GAO and our 
IG. The initiatives I have outlined for you today will 
substantially strengthen the overall integrity of the 
disability program and better protect our system from fraud. 
Whether it's securing current vocational information and using 
the most accurate and specialized medical evidence and opinions 
when making disability determinations, providing ongoing fraud 
awareness training to agency employees, offering our claims 
examiners ready access to expert medical guidance, or 
establishing a much needed quality assurance unit, we are 
committed to real change that will ensure continued confidence 
in a program that has meant vital financial security to 
generations of our Nation's railroad workers and their 
families. Thank you.
    [Prepared Statement of Mr. Schwartz follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Meadows. Thank you, Mr. Schwartz.
    Mr. Bertoni.

                   STATEMENT OF DANIEL BERTONI

    Mr. Bertoni. Chairman Meadows, Ranking Member Connolly, 
members of the subcommittee, good morning. I'm pleased to 
discuss the Railroad Retirement Board's disability programs and 
the challenges that expose taxpayer dollars to fraud, abuse, 
and improper payments. As a steward of both the occupational 
and total and permanent disability programs, RRB is accountable 
for managing and overseeing the expenditure of billions of 
dollars annually.
    However, our work has identified internal control 
weaknesses and oversight gaps in these programs. Related audits 
by the Board's inspector general and the Department of Justice 
investigation have also identified similar challenges. My 
Statement is based on our prior work and focuses on key 
vulnerabilities that threaten the integrity of RRB's programs 
as well as actions that the Board has taken to address our 
recommendations.
    In summary, instances of past fraud and improper payments 
have highlighted gaps in the Board's oversight, due in part to 
a manual, paper-based process and impedes the agency's ability 
to systematically identify potential fraud patterns, such as a 
high concentration of claims from one source or boilerplate 
medical exam information submitted for multiple claims by the 
same doctor. To address this issue, the Board has taken some 
limited steps to compile and analyze electronic data, primarily 
for Long Island Rail Road claims. But more could be done, 
including mining such data for the other railroads it oversees 
in its total and permanent disability program.
    Our June 2014 report further highlighted fundamental 
shortcomings in RRB's policies and procedures. First, we found 
that field staff rely on outdated information to verify 
claimants' self-reported work and earnings activity although 
more timely data is available. And they risk paying benefits to 
ineligible individuals as a result. We recommended that RRB 
seek more timely earnings data, such the National Directory of 
New Hires data base. Agency officials agreed to work with OMB 
in exploring this option going forward.
    Second, we reported that the Board's claims process fell 
short of basic internal control standards and that a single 
examiner could both review and approve a claim in many cases 
without any independent review by another third party. In fact, 
we found that up to one-third of all claims were approved by 
the same examiner who reviewed the application. And we noted 
that the absence of a second set of eyes on these claims could 
expose the agency to improper payments due to fraud or error by 
the claims examiner and recommended supervisory review of all 
claims.
    The Board subsequently revised its policy to strengthen 
such reviews effective September 2014. We also found an 
insufficient commitment to quality and integrity at RRB, as 
reflected in their quality assurance activities and performance 
metrics, which focus primarily on payment timeliness and 
accuracy and less on whether disability decisions were 
supported by the medical evidence and were, in fact, correct. 
While it's important that claims be paid quickly, it's equally 
important that benefit decisions be accurate. Thus, we 
recommended that the Board shore up its quality assurance 
processes and establish more balanced performance metrics. 
While the agency agreed with our recommendations and is in the 
process of developing a new quality assurance plan, we have yet 
to receive it or review it.
    Last, we noted an insufficient commitment to fraud 
prevention throughout the agency, even after high-profile Long 
Island Rail Road incident. Our interviews with staff showed an 
inconsistent level of fraud awareness. And claims reps in four 
offices we contacted said they had not received any fraud-
related training. Some other staff told us it was not their job 
to be on the lookout for fraud. We recommended that RRB take 
steps to elevate the importance of fraud prevention and 
detection agency-wide. The Board agreed and has begun to take 
steps to amend its procedures, training, and other program 
tools in this area.
    In conclusion, RRB's disability programs remain vulnerable 
to fraud and overpayments due to various management and 
systemic weakness that warrant sustained attention going 
forward. Absent a more proactive stance by the Board to make 
substantial progress in movement away from a business-as-usual 
approach to claims processing, public confidence in these 
programs may be further undermined. At present, much work still 
needs to be done. And we look forward to working with this 
subcommittee, Board officials, and inspector general staff as 
the agency continues to implement our recommendations.
    Mr. Chairman, this concludes my Statement. I'd be happy to 
answer any questions that you or other members of the 
subcommittee may have. Thank you.
    [Prepared Statement of Mr. Bertoni follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Meadows. Thank you so much.
    This is a, what we would normally call a fly out day. And 
so in the interest of being sympathetic to some of our members 
that may be flying out soon and that have a real interest in 
this, I'm going to recognize the vice chair of this 
subcommittee, the gentleman from Michigan, Mr. Walberg.
    Mr. Connolly. I just want to say, Mr. Chairman, before Mr. 
Walberg, I have to fly to Fairfax at some point.
    Mr. Walberg. Thank you, Mr. Chairman. It's interesting 
talking about flying out when we're dealing with railroads. So 
we'll try to fly a little lower at this point.
    But thanks for having this hearing. Railroads are important 
to our economy. Railroads do carry things that we can't do as 
efficiently otherwise. And there are plenty of dedicated 
people, some you've mentioned from your families, involved. But 
that requires that we be more effective in making sure that 
every system works and everyone is involved in doing it the 
proper way.
    Mr. Dickman, did the OIG recommend that the RRB attempt to 
recover the payments that were deemed improper after the Long 
Island Rail Road fraud?
    Mr. Dickman. Initially, when the Board was going to send 
out at our request termination letters for those individuals 
that saw Dr. Ajemian and Dr. Lesniewski, we told them not to 
request, that they would be looking at trying to recover any of 
that money because the U.S. Attorney's Office, since, as a 
former prosecutor, the criminal matter always trumps any civil 
action. And they wanted time to make a determination as to 
what, if anything, they were going to do with the 700 people or 
up to 1,500 people that were involved in this. There was one 
other doctor, a third doctor, who is deceased, who was, 
obviously, never tried in this matter.
    So we sent a notice saying hold off on doing anything like 
that. We received a letter from the general counsel saying: At 
the present time, we will not do anything as far as seeking 
recovery of the prior benefits. Then, unbeknownst to us, later 
they sent out--when they sent out a notice to all these 
individuals, they State that we will not recover or seek to 
recover any more benefits, which took us by shock and we were 
shocked. And so was the U.S. Attorney's Office shocked because 
now the Board is, obviously, not going to recover, seek any 
recovery. And the U.S. Attorney's Office, which was considering 
civil actions, is now prevented from seeking any restitution 
from these individuals.
    So it's really, it's kind of mind-boggling to send out a 
termination notice saying the Board States to these people: You 
are involved in fraud, but now we're going to let you reapply, 
and we're not going to go after any of these prior benefits, 
these millions and millions of dollars that we've given you, 
and let you reapply. And when the people did reapply, they 
approved 94 percent of them.
    Mr. Walberg. So your counsel was temporary, waiting for the 
process to develop?
    Mr. Dickman. We were waiting, right. We initially said hold 
off. And then----
    Mr. Walberg. Based upon determining the necessity for 
prosecution and the evidence.
    Mr. Dickman. Correct. Based on the U.S. Attorney's Office 
giving us direction on which way they were going.
    Mr. Walberg. Then I would follow that up, Chairman 
Schwartz, why did the RRB choose to abandon the option to 
recover 275--as I understand it--$275 million in improper 
payments following exposure of the Long Island fraud ring?
    Mr. Schwartz. When we received the information that Dr. 
Ajemian, the doctors involved pled guilty, we immediately 
started the process to open cases. And that process would be 
open cases, take a look at the information in the cases, and 
see if the person was legitimately disabled. In that process, 
we could have recovered payments.
    Mr. Dickman, at that time and rightfully so, said to us: 
You have to stop that process because you could interfere with 
prosecution, and we don't want you to recover payments.
    So he, along with us, decided that what we would do would 
be to issue a Board order that would allow people to reapply. 
Now, these are not people who were accused of anything. These 
were not people that were, that anyone indicted, that anyone 
accused. These were people who did go to that doctor. But they 
were not, they did not come in and voluntarily disclose that 
they did something.
    Mr. Walberg. Let me go back.
    Mr. Dickman, in looking at all of that information, what 
was just said, do you agree with that?
    Mr. Dickman. No.
    Mr. Walberg. Why?
    Mr. Dickman. Because we said: Hold off because we're 
waiting for direction from the U.S. attorney in how they're 
going to proceed. And these individuals all went to Dr. Ajemian 
or Dr. Lesniewski. And then the Board sends out a termination 
letter, based upon our request, stating the termination that is 
in case you people have committed fraud against the Railroad 
Retirement Board. And then, subsequently, down the road, they 
issue a Board order, which States to these individuals that you 
can reapply, which we know they had the opportunity the to 
reapply, and States that we will not be seeking any recovery 
from you.
    Mr. Walberg. Looks like a coverup?
    Mr. Dickman. I don't know if you'd call it a coverup. But 
it was maybe disingenuous. But we were taken aback by it.
    Mr. Schwartz. I would like to say something on that though. 
Our chief counsel says that there's nothing that was in that 
letter that we have sent--and this is good news actually--on 
the termination that precludes us from recovering any money 
from someone who has committed fraud. And we thought, I can 
tell you, we thought we were working with the Inspector 
General's Office every step of the way. We have worked with the 
Inspector General's Office every step of the way.
    Mr. Walberg. It doesn't sound like it. When we see the type 
of fraud that went on and the percentage of people who were 
involved in that situation who were reinStated and have 
received the final, final verdict that they were worthy of 
receiving those retirement benefits and those disability 
benefits, that doesn't seem like you're working with it.
    I know my time has expired. Hopefully, we will continue. 
And I yield back.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the ranking member, Mr. Connolly.
    Mr. Connolly. Mr. Chairman, in the spirit of comity, if 
there are colleagues on your side who are pressed because of a 
flight, I will reserve my time and defer to them if anyone 
needs it.
    Mr. Meadows. I think we're OK. Thank you. Thank you for 
your graciousness.
    Mr. Connolly. Certainly.
    Mr. Dickman, in 2007, the IG, your IG office, not you 
personally, issued the following Statement with respect to the 
RRB: ``The RRB has adequate controls to provide a reasonable 
assurance that disability applications are processed in 
compliance with applicable laws and regulations. There are 
sufficient edits and checks in the RRB computer system to 
provide assurance that the information on the disability 
application is correct and, therefore, the occupational 
disability decisions are based on correct information.'' Do you 
recall that?
    Mr. Dickman. I sure do.
    Mr. Connolly. OK. So, obviously, today, we would have to 
disavow that assessment.
    Mr. Dickman. Well, I take full responsibility for that 
audit. It was a very superficial audit. It was not one of our 
best efforts by any means. And it just, it looked--it didn't go 
behind the whole process. It said, in effect, it was: Are all 
the boxes checked? Is it done within an efficient manner?
    And the auditors who did that were not aware of the Long 
Island case; it was just being developed then as a criminal 
matter that they wouldn't know about it. So, yes, we did say 
superficially, based upon what we've seen, what they saw, it 
was correct. But some of the recommendations, two of the 
recommendations we made was, one of them was that there be, 
there can't, that the individual who is reviewing the case 
cannot also make the determination, that there should be some 
secondary oversight. And they agreed to that. And that was in 
2007. Yet, it's still is going on.
    Mr. Connolly. Right. I'm not trying to make the case to 
discredit the IG. I'm simply pointing out that we've learned a 
lot with that Statement.
    Mr. Dickman. Yes.
    Mr. Connolly. Mr. Bertoni, prior to 2008, did the GAO make 
any adverse findings against the RRB?
    Mr. Bertoni. We had some work we did in the, I believe, 
late 1980's. And we actually took--you're pulling on the memory 
strings here. I believe we took a sample of claims and we had 
some experts, external experts, maybe even SSA adjudicators to 
look at these claims to see if they were correctly adjudicated. 
And we had some real concerns with the action and reliability 
decisions.
    Mr. Connolly. Mr. Schwartz?
    Mr. Schwartz. Yes.
    Mr. Connolly. There's some confusion here. You went through 
a long laundry list of improvements based on both the IG and 
GAO reports. And yet Mr. Bertoni's testimony is we haven't seen 
a plan yet. In a sense, he's saying everything you're saying is 
all news to him formally. He may have heard of it. But, in 
terms of a formal response, here's an action plan--I mean, how 
many recommendations were there in the GAO report, Mr. Bertoni?
    Mr. Bertoni. I believe we had five.
    Mr. Connolly. Five? How many have you implemented or are 
you planning to implement? And when do you intend to notify the 
GAO?
    Mr. Schwartz. All five.
    Mr. Connolly. All five?
    Mr. Schwartz. We have told the GAO we're planning to 
implement them. We have a plan. And I have to say that Mr. 
Bertoni's and Mr. Dickman's recommendations have really, really 
been a big part of the plan we put together. Mr. Dickman's 
comments about changing the way we do business, he is right, 
spot on. He really is.
    Mr. Connolly. So you agree with his Statement that part of 
the problem here is, ``we're here to pay,'' culture?
    Mr. Schwartz. I think that part of the issue that we have 
is that we cannot sacrifice accuracy for expediency. In other 
words, we want to pay, but we can't sacrifice accuracy. That's 
why we have a quality assurance area that we've put together, 
which Mr. Bertoni suggested, which Mr. Dickman, I hope, will 
agree with as well. I think many of the things that he wants is 
in that quality assurance unit, where we will be able to 
basically double check our work and make sure that our work is 
proper.
    So, in answer to your question about the plan, we do have 
an improvement plan. I think that Mr. Dickman and Mr. Bertoni 
both will get a copy of that very soon. And I think it's also 
important when you say when will things be put together, we'll 
have timelines on that plan too. And then Mr. Dickman and Mr. 
Bertoni can monitor that.
    Mr. Connolly. OK.
    Mr. Dickman, you indicated that we still have a 98 percent 
approval rating of disability claims. And I assume, by citing 
that, you think that's way too high and obviously allows for 
fraud?
    Mr. Dickman. Yes.
    Mr. Connolly. What would be a number that you would be 
comfortable with?
    Mr. Dickman. When you get to, a statistician will tell you 
when you get to 98 percent, that's 100 percent. So something 
has to be wrong with the system. And it's either, you know, if 
railway labor and management want to continue this, then why 
not turn it into a entitlement? That's basically what it is 
because there is no real screening going on. If you have 100 
percent of the people applying receiving the benefit, the 
screening seems--is just--meaningful--it's very superficial.
    Mr. Connolly. I'm running out of time, unfortunately. But, 
Mr. Schwartz, I would like you to respond to that, 98 percent?
    I mean, Mr. Dickman is basically saying, by definition, 
you've got fraud going on when the number is that high. And one 
other thing I would like you to respond because, in Mr. 
Dickman's testimony, he also called into question the medical 
examination process. It's cursory and obviously some doctors 
are corrupt, as we learned in Long Island. So what are you 
doing to rotate doctors; to try to minimize fraud and 
corruption and collusion; and to have a more thorough 
examination so that the results are more credible?
    Mr. Schwartz. When we get an application----
    Mr. Connolly. Start with the 98 percent first.
    Mr. Schwartz. The 98 percent, I would say that when you 
start with that, you would say that the occupational disability 
law, actually--well, here's the best way to put it, the person 
has to have 10 years of rail experience or be 60 years old or 
have 20 years of rail experience and a current connection; then 
they can't do their job. That's it. It's a very unique, unique 
law. That being said, we have to do better. We absolutely have 
to do better. We have doctors all the way through. In our plan, 
we actually have doctors at the beginning, the IMEs; we have 
consultative exams in the middle; and, at the end, we have 
doctors, we have a contract with a doctor to do assessment at 
the end to make sure we did our work properly. So we have 
doctors all the way through the process.
    As far as Mr. Dickman's comment about how long an exam 
could last, I've not seen the contract on the exams that our 
IMEs are doing right now. So I would have to wait to comment on 
that.
    Mr. Meadows. Thank you, Mr. Schwartz.
    I thankthe ranking member.
    The chair recognizes the gentleman from South Carolina, Mr. 
Mulvaney.
    Mr. Mulvaney. Thank you, Mr. Chairman.
    Mr. Schwartz, you just mentioned the law and that part of 
the situation is contributed to by the fact that the law is 
unusual. And it sounds like if you meet the 10-year 
requirements and you cannot do your specific job, you qualify, 
is that what you're saying?
    Mr. Schwartz. If you meet the requirements, yes, the non-
medical requirements and you can't do your job, that's correct.
    Mr. Mulvaney. Should we change the law?
    Mr. Schwartz. That would be up to--if Congress would sit 
down with rail labor and management and discuss that, then we 
would administer anything that you----
    Mr. Mulvaney. Would you support us changing the law?
    Mr. Schwartz. What I would say is if you do change the law, 
we'll administer it.
    Mr. Mulvaney. That's not what I'm asking. I'm saying, look, 
I've got a disability policy. A lot of folks in this room 
probably do. And the language is different; you're right. But 
what you just described, it sounds like it's unusual, maybe not 
unique but unusual. And the disability policies I'm familiar 
with say I can't do my job or something similar. What if we 
change the law to say that? In order to qualify for the RRB 
payments or the program, you would have to not only not be able 
to do your job but a similar job as well. Would you support 
that?
    Mr. Schwartz. Yes, I mean, I think that would be something 
that you could, that rail labor and rail management would have 
to discuss. I think that it would be something----
    Mr. Mulvaney. Do you think your Board would support it?
    Mr. Schwartz. Do I think the----
    Mr. Mulvaney. You're a three-member board, right?
    Mr. Schwartz. Yes.
    Mr. Mulvaney. Do you think they would support that?
    Mr. Schwartz. Changing the occupation--I think that if 
there's changes that need to be made in the laws, I think that 
they would----
    Mr. Mulvaney. I'm not asking you that. And you see where 
I'm getting on this. People like it the way it is, don't they?
    Mr. Schwartz. People like?
    Mr. Mulvaney. The people who can get the benefits. It's a 
great system, isn't it?
    Mr. Schwartz. I think that occupational disability as a 
system needs to be improved. The way we administer occupational 
disability needs to be improved.
    Mr. Mulvaney. Come back to what Mr. Walberg was asking you 
about, toward the end of your questioning, you mentioned that 
your lawyers told you that the letters that you sent out to the 
people who had to re-qualify did not prevent you from 
subsequently seeking to collect payments from them, is that a 
true Statement? Is that accurate?
    Mr. Schwartz. For fraud, yes.
    Mr. Mulvaney. For fraud. So why haven't you done it yet?
    Mr. Schwartz. These were people who, that, OK, we 
terminated their benefit because they had seen doctors that had 
plead guilty.
    Mr. Mulvaney. No, I understand that.
    Mr. Schwartz. They were not indicted. They did not have any 
criminal charges brought against them. So what we decided to do 
is have them reapply with new medical evidence.
    Mr. Mulvaney. No, I get all that. But my point is the OIG, 
I think, has indicated that there might be as many as $275 
million worth of payments that you could collect. You said you 
asked them to collect it earlier, and they said no because of 
the ongoing investigation. There's no controversy there. But 
now there's no ongoing controversy, and you could go get it. So 
the question is, why haven't you done that?
    Mr. Schwartz. I would have to see if we had a legal basis 
to do that. And I will.
    Mr. Mulvaney. No, you just said your lawyers told you you 
did have a legal basis to do it.
    Mr. Schwartz. We have a legal basis to collect the money 
for fraud. What I would have to do is talk to my lawyers, and 
we would have to see if fraud can be proved.
    Mr. Mulvaney. That's fine. I'll grant that for sake of 
discussion. Why haven't you talked to your lawyers yet? Your 
opening Statement was that you were working tirelessly on this. 
It's an interesting word by the way. I'm not really sure what 
it means. You also said you were committed to real change. So, 
in this tireless work that you've been doing, why haven't you 
called your lawyers about trying to get this money back?
    Mr. Schwartz. In my opening Statement, I was referring to 
the changes that we're making in the program.
    Mr. Mulvaney. OK. So you're working tirelessly on fixing 
the stuff going forward but not tirelessly on collecting the 
money that might have been stolen already.
    Mr. Schwartz. These were people who went to this doctor.
    Mr. Mulvaney. The history is fine. No one is disagreeing 
with you about the history. Why haven't you done it yet?
    Mr. Schwartz. Why haven't----
    Mr. Mulvaney. Why haven't you tried to get this money back 
yet? Why haven't you talked to your lawyers about it? You're 
spending all your time fixing things going forward, is that 
what you're saying? There's just not enough time in the day to 
fix things going forward and trying to gain redress for past 
wrongs?
    Mr. Schwartz. These were people who reapplied and submitted 
new medical evidence.
    Mr. Mulvaney. Right. And that means what to you, Mr. 
Schwartz?
    Mr. Schwartz. They reapplied. They submitted----
    Mr. Mulvaney. Oh, I see what you're saying, you're saying 
Mr. Dickman is wrong and there really isn't, you've done an 
investigation. And, because these folks have resubmitted their 
medical information, that you disagree with his determination 
that there might be up to $275 million worth of recoverable 
losses.
    Mr. Schwartz. I think Mr. Dickman does a great job. I think 
his recommendations to us have been very, very helpful.
    Mr. Mulvaney. Do you think he's wrong?
    Mr. Schwartz. I would not say that Mr. Dickman is wrong. 
This is what I would say: I would say that back when Dr. 
Ajemian pled guilty, there were 1,500 applications that Mr. 
Dickman was looking at. When we went to terminate people, we 
asked for a list of people that went to Dr. Ajemian. He gave us 
back a list of 700----
    Mr. Mulvaney. That's fine. We've done the history. I'm over 
time. I apologize. I will close with this. Something miraculous 
happened in this building a couple weeks ago. In fact, I think 
it was in this room. We had somebody here in a similar position 
of authority within the government. And she gave answers that 
were almost as bizarre and indefensible as the ones you've 
given here, that we've heard about before today. Do you know 
what happened to her, Mr. Schwartz? Ms. Leonhart from the DEA? 
Are you familiar with that? I'm sorry, sir, is that a yes or a 
no?
    Mr. Schwartz. No.
    Mr. Mulvaney. OK. She's gone as the result of a bipartisan 
uproar over the way that administration was administered. In 
fact, I think before she left the room, there were 23 names on 
a letter to the President saying: This person is not capable of 
doing the job; please give us somebody else.
    This is real. We take this stuff real seriously. And the 
days of you being able to come in and just say what you want to 
say, completely contradict the GAO and the IG's Office, and 
think that nothing is going to happen is, thankfully, coming to 
an end.
    Thank you, Mr. Chair.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Wisconsin, Mr. 
Grothman.
    Mr. Grothman. Thank you for being here today.
    Just so I get it straight, the occupational disability 
program, what is the percent of people's pay or how much do you 
determine we get every month if you become eligible for this?
    Mr. Schwartz. Right now, it depends. I mean, it depends on, 
I mean, I've seen annual Statements that people get probably 
around, I'd say right now somewhere between $2,700 and $2,900 a 
month, depending on the year.
    Mr. Grothman. OK. How about the total and permanent 
disability program, what do they get?
    Mr. Schwartz. More like $1,700 or $1,800 a month.
    Mr. Grothman. OK.
    Mr. Schwartz. I don't have the exact numbers in front of 
me, but something like that.
    Mr. Grothman. Do you know percentage-wise every year how 
many people apply for these programs?
    Mr. Schwartz. Yes. I mean, the percentage of people who 
apply for the programs has gone down tremendously. Ten years 
ago, basically there were, oh, probably, I mean, when you're 
talking about for total and permanent disability, they were 
probably 30 percent of the applications. Now it's down to 15. 
Occupational disability, probably 8 percent of the people 
applied; now it's down to 3. So the percent of people who are 
applying for these has dropped tremendously in the past 10 
years.
    Mr. Grothman. Wait a minute, I must be missing something 
here. Thirty percent of what are applying?
    Mr. Schwartz. OK, if you have like--let me give you an 
example. Last year, 12,400 people received new benefits. Of 
those, 10,200 were age and service; in other words, those were 
benefits that weren't disability. OK, so that left, oh, around 
2,000, 2,100 people that applied for benefits. Of those, 800 
were total and permanent; 1,100 were Social Security 
equivalent; and 200 were occupational disability. So you had 
about 2 percent for that type of disability, pure occupational 
disability.
    Mr. Grothman. So, every year, 2 percent of the employees 
say they are disabled?
    Mr. Schwartz. Well, right now--well, what it comes down to 
is--well, there is--occupational disability as a pure 
disability that doesn't get a Social Security equivalent----
    Mr. Grothman. Yep.
    Mr. Bertoni [continuing]. Are not an age and service. It is 
about 2 percent. But there is a total and permanent program as 
well, and there is also a process for an occupational 
disability where they get a Social Security equivalent.
    Mr. Grothman. Right.
    Mr. Schwartz. So, last year, 18 percent of the people--18 
percent total received some kind of disability.
    Mr. Grothman. How many of the employees under this system 
every year percentage-wise, say, I am disabled?
    Mr. Schwartz. Last year it was 18 percent.
    Mr. Grothman. Eighteen percent of the people said they were 
disabled? I mean, could you compare that to other occupations 
out there in the world like the--both government and 
nongovernment like----
    Mr. Bertoni. There is not a lot of evidence on 
occupational. There are not a lot of occupational programs. RRB 
is very unique in it being an occupational program.
    The Social Security Administration is going to look--sort 
of to your question, is it a five-step sequential process. One 
of the sequences is first to say, can this person do their 
prior work? If yes, then that's a different answer. If no, then 
they go to, can they do another job in a national economy? So 
that is all that you have. It is sort of an apples-and-oranges 
question.
    Mr. Grothman. I am either asking the question wrong or 
something. That can't be right.
    Mr. Connolly. Would my friend--would my friend just yield 
for a clarification?
    Mr. Grothman. Sure.
    Mr. Connolly. I thank my friend. I'm not understanding your 
answer, Mr. Schwartz, to my friend from Wisconsin. Are you 
saying that 18 percent of the total awards, 18 percent of the 
total awards are for disability? Workforce?
    Mr. Grothman. OK, that is not the question. I think you are 
missing the question.
    Mr. Connolly. OK.
    Mr. Grothman. Of all the people who would be eligible to be 
disabled, of your sea of people who are working under these 
programs, what percent of employees every year submit a claim 
of some nature for disability? That is the question.
    Mr. Schwartz. Last year, as I said, we had 12,400 people 
get awards, 12,400 get awards. OK? Of those, 18 percent--18 
percent of those people received an award for disability.
    Mr. Grothman. OK, so we are looking at about, I guess what 
you told me, like 2,000----
    Mr. Schwartz. Yes.
    Mr. Grothman. OK. OK, and how many people are in the 
program total who would be eligible? What I'm trying to get at 
here is, there are X number of railroad employees who could 
hypothetically become disabled. Every year a given percent say, 
I'm disabled. What is that percent? How many people--how many 
working employees do you have every year who could be covered 
by the system? Let's see how we can work this through for you.
    Mr. Schwartz. Well, right now, there's about 250,000 people 
in the work force.
    Mr. Grothman. OK, so then we are saying about 1 percent of 
the employees every year say they are disabled, is that what we 
are trying to say?
    Mr. Schwartz. You could run the numbers that way.
    Mr. Grothman. Well, I mean----
    Mr. Schwartz. Well, I mean, let me----
    Mr. Grothman. OK, the deal we are trying to get at----
    Mr. Schwartz. Yes, yes, just really, honestly, if you could 
let me know what you are getting at maybe I can understand 
better.
    Mr. Meadows. Mr. Schwartz, let me--if the gentleman would 
yield for just a second. How many are eligible to get benefits? 
What's the total number? It's not 200,000, is it?
    Mr. Schwartz. Eligible to get benefits?
    Mr. Meadows. Qualify either 10 years or 20 years, the 
whole----
    Mr. Schwartz. I don't have that number.
    Mr. Meadows . OK. It's about 70,000----
    Mr. Bertoni. How many are currently on the rolls?
    Mr. Meadows . Yes.
    Mr. Bertoni. Is that the question? How many are currently 
on the rolls?
    Mr. Meadows . Yes. I guess----
    Mr. Bertoni. Occupational disability, 61,000; total and 
permanent, 21,000.
    Mr. Meadows. Thank you.
    Mr. Schwartz. That's on the rolls.
    Mr. Meadows. Thank you.
    Mr. Schwartz. That's on the rolls.
    Mr. Grothman. There's 61,000 people that are currently on 
some form of disability, railroad disability? No?
    Mr. Schwartz. There's 58,000 people currently that are 
labeled as occupationally disabled; 45,000 of those people have 
reached the age of 62; 5,000 of those people are--have the pure 
occupational disability where they aren't able to get any other 
benefit. They aren't able to get an age and service benefit. 
That would be a regular retirement. They aren't able to get any 
kind of Social Security equivalent. There's 58,000 people that 
are categorized as occupational disabled, as Mr. Bertoni said, 
20,000 total and permanent.
    Mr. Mulvaney. Will the gentleman yield for a second?
    Mr. Grothman. Sure.
    Mr. Mulvaney. Mr. Schwartz, you just--I don't follow the 
significance of what you just said. You said a certain--there 
is a large number 60-some thousand. And how many of those are 
62?
    Mr. Schwartz. There's 58,000 people labeled as 
occupationally disabled because their application originally 
came in as occupationally disabled.
    Mr. Mulvaney. OK.
    Mr. Schwartz. All right, 45,000 of those people are 62 and 
over.
    Mr. Mulvaney. And let me stop you right there. What is the 
significance of that, of being over 62?
    Mr. Meadows. OK, the gentleman's time is expired, but you 
can answer that question.
    Mr. Schwartz. The significance of that is that they could 
be getting, if we didn't exist, let's say we didn't exist, they 
could be getting some kind of benefit.
    Mr. Mulvaney. From whom?
    Mr. Schwartz. Social Security.
    Mr. Mulvaney. Thank you.
    Mr. Meadows. I thank the gentleman from Wisconsin, and we 
are going to have another round so if you would like to sit 
around.
    The gentleman from Florida is going to have to leave so the 
chair recognizes the gentleman for 5 minutes.
    Mr. Mica. Thank you.
    Again, it is good to be here and also have been here 
because I remember I think it was back in 2008 when this was 
disclosed. And we had evidence of, at that time, it was over 90 
percent were getting these disability approvals. Isn't that the 
case?
    Mr. Dickman. Ninety-eight percent.
    Mr. Mica. Yes, OK. Basically, we were not, my side was not 
in charge when this came down. And I was told that those 
responsible would be prosecuted; this would be halted; and that 
those would be held accountable who have participated. Some of 
them have gone to jail. Some of them held accountable.
    Mr. Dickman. Yes.
    Mr. Mica. But when I saw--thank you, Mr. Chairman, and 
ranking member for holding this meeting--but when I saw the 
numbers, I just about fell off my chair. Is this 96.7 percent 
grant rate correct on these claims?
    Mr. Dickman. That's national average, or is that the re-
adjudication?
    Mr. Mica. There is disability applications, all 
applications filed during the period--filed during fiscal years 
2013 to 2014 grant rate. What is this?
    Mr. Dickman. I believe that is----
    Mr. Mica. Denial is 98, and then 2,839, the grant rate is 
96.7.
    Mr. Dickman. Right.
    Mr. Mica. Is that correct?
    Mr. Dickman. Correct, yes.
    Mr. Mica. Well, again, we haven't come very far from where 
we were. Now, there was fraud and abuse of the system before. 
Is that the case now, inspector general?
    Mr. Dickman. Well, I think it is the case, and more----
    Mr. Mica. Is it fraud? Because before it was fraud and 
people were fraudulently approving these. There is a doctors' 
ring, and then they were--OK, is that still the case?
    Mr. Dickman. Well, we are finding it's still the case. Not 
to maybe the same extent because of the particular----
    Mr. Mica. It is gamed a little bit differently?
    Mr. Dickman. Different because, in the Long Island case, 
they had a private pension plan that a person could retire.
    Mr. Mica. And then it is also abuse.
    Mr. Dickman. It is abuse because one of the problems is, 
the way they define you can't do your regular railway 
occupation, is that, for some reason, they use--you can't do 
one aspect of your job. And we found that that is not defined 
anywhere in any of the rules or regulations. So there is----
    Mr. Mica. So the whole process is a sham. How many people 
do you have, Schwartz, operating this Board? Are there a couple 
of employees? How many employees are reviewing these claims, 
the whole thing?
    Mr. Schwartz. Down in that section, there is around 30.
    Mr. Mica. And the whole Board that--operations are 30.
    Mr. Schwartz. Who, well, no----
    Mr. Mica . What are the 700 people doing that I am told--
860 total.
    Mr. Schwartz. Well, the occupation disability is not all 
that we do. We have a lot of those people working the computer 
area that--we have other types of pension benefits? Occupation 
disability is not----
    Mr. Mica. But, I mean, that section costs a lot of money to 
operate. You have got the Board. I mean, hell, you might just 
as well grant everybody disability and agree on something, 
close down, and save your administrative costs. That's probably 
not the solution. You need a better process for processing 
these folks for approval. And the inspector general has talked 
about how it is gamed. That's going to require a legislative 
fix, is that correct, or can it be done administratively?
    Mr. Dickman. I think, as far as what the definition of 
occupational disability, that can be done administratively; 
that the person cannot do their regular railroad occupation, 
not one aspect of it. I mean, you could--your job might entail 
doing 15 different things. If they say--and the claims 
examiners are told that the person can't do 1 thing, 1 out of 
that 15, that means that they are occupationally disabled.
    Mr. Mica. The average benefit, I heard, was somewhere in 
the $400,000 once this is granted is what they receive, is that 
correct?
    Mr. Dickman. Down the road?
    Mr. Mica. Yes.
    Mr. Dickman. Well, it all--it depends on each----
    Mr. Mica. It is an average.
    Mr. Dickman. Right.
    Mr. Mica. But I remember distinctly, there was a conductor 
who walked the aisles or something, and collected tickets, got 
approval for disability.
    Mr. Dickman. Sure.
    Mr. Mica. I think the New York Times reported he was 
playing golf in Florida, and which I have no problem with 
people retiring and playing golf in Florida, but to do it on a 
pension, a government pension, a disability provision that was 
not properly awarded, raises a lot of questions. I'm stunned, 
Mr. Chairman. We need to change the law if they won't change 
the rules and get a handle on this.
    Thank you. I yield back.
    Mr. Meadows. I thank the gentleman from Florida for his 
leadership, not only on this issue many years ago but certainly 
for his leadership on other transportation issues.
    And the chair recognizes the gentleman from Alabama who has 
been involved in this particular circumstance for many months, 
if not longer.
    And Mr. Palmer, from Alabama.
    Mr. Palmer. Thank you, Mr. Chairman.
    Chairman Schwartz, on February 18 of this year, I sent you 
a letter, which contained 13 distinct groupings of questions. 
The Board responded on April 15, 2015. Do you believe that this 
April 15 letter was fully responsive to all of my questions?
    Mr. Schwartz. When we responded to your letter, we 
responded the best way we could.
    Mr. Palmer. I ask you, though, do you believe that it was 
fully responsive, fully responsive to all of my questions?
    Mr. Schwartz. Is there something that you felt you still 
need an answer to? I apologize for that. I thought we did 
answer the questions, yes.
    Mr. Palmer. So you answered, yes, that you think you fully 
responded to my questions?
    Mr. Schwartz. What I think has--when we received your 
letter, we put together answers that were the very best answers 
to your questions we could put together. Yes.
    Mr. Palmer. So your answer is yes. Thank you.
    I'm not sure that they were fully responsive. For instance, 
in question two, I asked----
    Mr. Schwartz. Sure.
    Mr. Palmer. If Congress were to enact legislation to limit 
occupational disability to a time certain, how long a period 
would you recommend? And you dodged that question. You said you 
needed time to consult with other stakeholders. After I sent 
the letter, you requested an extension to fully respond. I 
think you have had plenty of time to respond and discuss with 
the stakeholders. If Congress were to limit the time a person 
could draw benefits, how long would that be?
    Mr. Schwartz. I would have to the say rail labor and rail 
management would have to be involved in those discussions.
    Mr. Palmer. OK, and question four, I asked: How many 
disability fraud referrals have been made to the inspector 
general?
    In your response, you provide the number 44. But it's my 
understanding that 38 of those are unemployment cases. That 
would make, in my opinion, it would make your response 
inaccurate and perhaps misleading. Would you agree that an 
unemployment case is not the same as a disability case?
    Mr. Schwartz. If you were talking about investigative 
disability cases, in other words, referring to the inspector 
general for an investigation, you are exactly right, it is 
different.
    Mr. Palmer. OK, and then that begs the question of why you 
answered the question the way you did. The question was: How 
many disability fraud referrals have been made to the inspector 
general? And you said 44; 38 of those were unemployment cases. 
If they were not disability cases, does that mean there were 
only six? But, yet, you answered 44. Can you respond to that?
    Mr. Schwartz. No, I can't. I can't respond to that. I mean, 
when we worked with our people and asked them how many had been 
submitted, they said 44. And basically, it turns out, if it's 
six, I apologize for the answer.
    Mr. Palmer. Mr. Dickman, do you have any idea of how many 
disability fraud claims were referred to the--to your office?
    Mr. Dickman. I think four. No, I think less than four. I 
think it might be two.
    Mr. Palmer. OK. On question seven, I note that the latest 
statistics for occupational disability approval rate is 98 
percent.
    Mr. Schwartz. Uh-huh.
    Mr. Palmer. And then I asked you for updated numbers. Did 
you provide updated numbers in your response?
    Mr. Schwartz. It's 98 percent. I think we just assume that 
throughout the letter, it was 98 percent, and apparently we did 
not put down 98 percent. It's 98 percent.
    Mr. Palmer. I find that interesting, particularly in 
context of question five. It indicates that--in your answer to 
question five that indicated that examiners who were doing the 
disability exams were to consult with a medical professional 
and not that the disability applicant submit to--or that the 
disability--let me rephrase that.
    That they consult with a medical professional rather than 
have a disability applicant submit to an exam by a medical 
professional. And then you also say that you require a Social 
Security disability examiner and a Social Security 
Administration medical professional to review the case prior to 
the Railroad Retirement Board review and decision. How has this 
process impacted the RRB's disability approval rate?
    Mr. Schwartz. What happens is, there's two types of 
disabilities. There is total and permanent, and there is 
occupational. About 33 percent of our cases end up going to 
Social Security for review. The Social Security rate, Dan, is 
probably somewhere in the 70's.
    Mr. Bertoni. Seventy-eight percent.
    Mr. Schwartz. Yes, the Social Security rate is somewhere 
around 78 percent. What is happening is, we are just putting 
this plan in place. Basically, we are putting a plan in place 
that will have doctors involved, have exams by doctors. We will 
have a quality assurance unit. We will have training.
    Mr. Palmer. Let me interrupt you. You say you will have 
exams by doctors. Now, based on the response to the questions, 
you said that you would have a Social Security disability 
examiner and a medical professional review the case. In other 
words, the disability examination would be done by someone 
else, but you would have a medical professional associated with 
Social Security to review the case. That's not the same as 
having a medical professional do the evaluation.
    Mr. Schwartz. Every application in our plan that comes in 
will have an independent medical exam.
    Mr. Palmer. And it is also interesting--and you know, I 
will check my numbers.
    Mr. Meadows. Mr. Palmer, your time is expired. And we are 
going to have a second round so if you can hang around. If not, 
I will let you ask one last question.
    Mr. Palmer. One last question. The numbers that I have on 
Social Security approval rate is less than 40 percent before 
appeal, and 65 percent after appeal. But you say 78 percent?
    Mr. Bertoni. No, the total and permanent program is at 78 
percent. Social Security Administration's initial claims 
approval rate is about 30 percent. And that's problematic for 
us because supposedly the Social Security Administration and 
the RRB are using the same criteria. So there is a pretty wide 
gulf between what is being approved at the Social Security 
level versus RRB.
    Mr. Palmer. Well, apparently.
    Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman.
    I thank the gentleman for his leadership on this particular 
issue. I'm going to ask a few questions.
    Mr. Dickman, what incentive is there to prevent fraud? I 
mean, when we really look at this in terms of is there any 
incentive to deny claims under the existing policy that Mr. 
Schwartz has had in place?
    Mr. Dickman. Well, again, in our view, there really isn't 
as long as you have this culture of we are here to play, and 
the feeling is in the industry is that it's our money.
    Mr. Schwartz. Yes.
    Mr. Meadows. But culture is an ambiguous thing, and so I 
guess what I'm saying, is there any review process or anything 
that gives a rating to those that would deny a claim? I mean, 
are you aware of any matrix that is out there?
    Mr. Dickman. At the present time?
    Mr. Meadows. At the present time.
    Mr. Dickman. No.
    Mr. Meadows. OK. Mr. Schwartz.
    Mr. Schwartz. Yes.
    Mr. Meadows. Let me--you actually have a chairman and 
ranking member that has a great affinity for railroad employees 
and the union, which is----
    Mr. Schwartz. Yes, sir.
    Mr. Meadows [continuing]. Is rare to have this. You also 
have a ranking member and a chairman who loves railroad 
management.
    Mr. Schwartz. Yes, sir.
    Mr. Meadows. That is unusual to find those two. And I think 
both the union, from what I understand, both the union and 
management hate fraud.
    Mr. Schwartz. Correct.
    Mr. Meadows. Both the union and management wish we weren't 
here today, you know, and so it's unique to have that kind of 
group together.
    And I guess my question to you, Mr. Schwartz, we have got 
recommendation--70 recommendations.
    Mr. Schwartz. Yes, sir.
    Mr. Meadows. And you implemented five. What happens to the 
other 65 recommendations? Do you just look the other way?
    Mr. Schwartz. Well, I think that I would like to sit down 
with Mr. Dickman after this meeting and find out, you know, get 
our lists together.
    I think some of those, Mr. Dickman, were probably 
legislative. Is that correct, sir?
    Mr. Dickman. Some are, yes.
    Mr. Schwartz. Some are legislative. And I think many of 
them--and I think that he might need that clarification as 
well--are in our plan. I think many of the things that he has 
recommended are in our plan.
    Mr. Meadows. Well, I appreciate you sharing that here at 
this hearing, Mr. Schwartz. My understanding is they sent you a 
list, and you never responded. Is that correct?
    Mr. Schwartz. I don't know exactly.
    Mr. Meadows. You are under oath, so I mean----
    Mr. Schwartz. I know that. Mr. Dickman, would you help me 
with that?
    Mr. Dickman. I don't know what--we sent so many requests 
and so many alerts.
    Mr. Meadows. So is that, Mr. Schwartz is that your general 
counsel behind you? I mean, is your general counsel here today? 
You have got somebody behind you that is here helping you with 
this testimony? I guess the question is, do you want to turn 
around and ask them if you have gotten letters that you have 
not responded to with the IG because we have information that 
that's the case.
    Mr. Schwartz. Yes, I just--I don't know which, you said 
that you received a letter. I--Mr. Chairman, I didn't 
understand the question. You said you received a letter. I 
didn't know which letter. But if you say ``letters,'' yes, we 
have received letters that we haven't responded to.
    Mr. Meadows. OK, there's 13 recommendations. So I will be 
specific; 13 recommendations that the IG has made to you that 
you just didn't respond to. Does that mean that you don't 
intend to respond to, that you haven't had time, or you are 
just ignoring them because you thought it would go away?
    Mr. Schwartz. Mr. Chairman, there is no way I would ignore 
the IG's recommendations. There is no way.
    Mr. Meadows. Well, it's hard for us to believe that when we 
have had 70 recommendations and only five implemented. And Mr. 
Bertoni was talking about--let me quote him--``There's only 
been limited progress,'' I think was his words, in responding 
from you, Mr. Schwartz. And not just you, but the other members 
of the Board that are not here, and you know, you are catching 
the heat today, and perhaps we have to have another hearing to 
have all three of you if--but you are the Chairman, and so I--
why would Mr. Bertoni say limited response, Mr. Dickman have 13 
issues that were not responded to, and you in your testimony 
lay out a grand plan of how you have got this all under 
control. So is it is all under control?
    Mr. Schwartz. Mr. Chairman, the GAO gave us five 
recommendations. We have agreed with all five recommendations 
and are implementing all five recommendations.
    Mr. Meadows. All right, when will they be--when will they 
be implemented?
    Mr. Schwartz. I will give you a timeline. I will submit 
that for the record.
    Mr. Meadows. All right. And so what about Mr. Dickman's 
recommendations, the 13 nonresponses? Are you going to respond 
to those 13?
    Mr. Schwartz. Yes.
    Mr. Meadows. Even if it is that we reject----
    Mr. Schwartz. Yes, I will.
    Mr. Meadows. OK. That's fair. So let me go on a little bit 
further because this is all about cooperation.
    Mr. Schwartz. Yes.
    Mr. Meadows. I think most of us here believe, I can tell 
you, I can't even imagine climbing Mount Kilimanjaro or a 400-
mile bike ride, and I don't get disability. So what, you know, 
you laid out a great plan in your opening testimony. But how 
much of that plan has just been derived for this hearing? 
Because my understanding is a lot of that hadn't been 
communicated in terms of the new plan. When did you start 
working on that because you said 2013, but you just meant the 
task force was 2013, isn't that correct?
    Mr. Schwartz. We have been working on that plan for a long 
time. And I think that----
    Mr. Meadows. How much of the plan has happened in this 
year? How much of your plan? If we were to ask for documents, 
how much of the plan actually happened since you were notified 
that there was going to be a hearing?
    Mr. Schwartz. Oh, a lot of the plan happened before that, 
before we were notified we had a hearing.
    Mr. Meadows. How much?
    Mr. Schwartz. Well, I would have to get that to you. Hang 
on a second.
    Mr. Meadows. How about after the 7-day letter? How much of 
it came after the 7-day fire alarm?
    Mr. Schwartz. All of it. All of it.
    Mr. Meadows. So every bit.
    Mr. Schwartz. Absolutely, I mean, Mr. Dickman's 7-day 
letter had a great effect. There's absolutely no--I won't deny 
that.
    Mr. Meadows. So my question is, why would Mr. Dickman have 
to go through such extreme measures to pull the fire alarm, to 
say, Mr. Schwartz, to get rid of a guy who is getting jujitsu, 
why would he have to go through that to make you respond, Mr. 
Schwartz?
    Mr. Schwartz. Mr. Chairman, the question was how much of 
this plan was after the 7-day letter. All of it was. Before 
that, we did do some things but we weren't doing as good a job. 
It is absolutely true.
    Mr. Meadows. OK, I'm going to ask one last question.
    Mr. Schwartz. Yes, sir.
    Mr. Meadows. And then allow the ranking member to ask a few 
questions before we recognize the others. I have a real 
concern----
    Mr. Schwartz. Yes.
    Mr. Meadows [continuing]. About your willingness to solve 
the problem and work with the GAO, and the IG. And you have got 
sympathetic guys up here that don't want to hurt anybody. We 
want them to have that safety net. Yet, at the same time, when 
this committee asked you for particular documents, we have to 
review them in camera--or had to review them in camera, and you 
made it very difficult for us to get the documents for our 
review. Do I have your commitment today that that will change?
    Mr. Schwartz. You have my commitment today that we will do 
everything we can to be cooperative.
    Mr. Meadows. That's not the question. That's a great answer 
to a question I didn't ask. Do I have your commitment today 
that that will change? Because if not, Mr. Schwartz, let me 
assure you, you have enough people both on the Democrat and 
Republican side that we can do the research and it may be 
laborious for us, but we want to get this over with quickly; 
solve the problems so that your--the folks that depend on this 
safety net can depend on that money being there.
    Mr. Schwartz. Absolutely.
    Mr. Meadows. And that we actually address this problem. But 
I'm not going to let this go on for a long time. So do I have 
your commitment that you are going to not make my staff have to 
go through all kinds of laborious, systematic ways to get 
information and that you and the other Board members will 
commit to being transparent, and give this committee what it 
needs?
    Mr. Schwartz. Yes.
    Mr. Meadows. Thank you very much. I recognize the ranking 
member--oh, we have got the gentlewoman from New York, Mrs. 
Maloney, is here and so I would recognize her for a series of 
questions.
    Mrs. Maloney. Let me----
    Mr. Meadows. All right, I recognize the ranking member for 
a second.
    Mr. Connolly. I thank the chair.
    Mr. Schwartz, you have got a 98 percent approval rating?
    Mr. Schwartz. Yes.
    Mr. Connolly. Do you think that is too high?
    Mr. Schwartz. I think we have to make sure. The problem is 
we have to make sure that the people are getting the benefits 
they deserve. But we also have to make sure we are paying it 
properly. And I think we need to put our plan in place to 
ensure that everything is done properly.
    Mr. Connolly. Yes, Mr. Schwartz, Mr. Dickman has just 
testified that when you get to 98 percent, it is virtually an 
entitlement program. It has gone far beyond what its original 
purpose was. Do you share that view, or do you think 98 percent 
is--I'm honestly asking because, in my opening Statement, I 
said in and of itself, a high rate of approval need not mean 
fraud. It could mean people are self-selecting when they apply, 
and it is corroborated. But 98 percent to a layman and to Mr. 
Dickman, your IG, seems to be a warning sign flashing something 
is fundamentally, systemically wrong with the whole process of 
how we evaluate disability claims. I'm asking you, as Chairman 
of the RRB, do you share that concern? Would you agree?
    Mr. Schwartz. Oh, I absolutely share that concern that 
there could be--that there could be an issue--that there is an 
issue that we have--that we have to fix. We have to change the 
way we do business. We really do. The things that Mr. Dickman 
brought up, the things that Mr. Bertoni brought up, are 
absolutely correct. We have to change the way we do business, 
and we have to make fundamental changes, and that's what we are 
doing.
    Mr. Connolly. Mr. Dickman and Mr. Bertoni, the Long Island 
Rail Road fraud, obviously, none of us were suspecting that was 
going on in earlier years, but in light of the fact that it did 
happen, and it was so stunning, do we believe that that was a 
bad apple but not characteristic of the system, or do we now 
believe that the LIRR case reveals systemic problems that won't 
go away until and unless we reform the system? I mean, what is 
your--what lessons should we be learning from the Long Island 
case?
    Maybe, Mr. Bertoni, give you the chance to go first, and 
then Mr.----
    Mr. Bertoni. I think part of this is, I mean, we don't know 
if it is systemic. We do know that physician-assisted fraud 
happens. I just issued a report a couple of months back for the 
Social Security Administration. We know it is happening there. 
But if you are not looking for it, if you don't have the tools 
in place, the data analytics and other tools to sort of look at 
the quality of the decision and what is going into the 
decision, you don't know.
    I would just say, we know it is happening, there is 
collusion. It usually involves two to three parties, but to 
catch these things, it is usually chance and luck. Unless you 
have the appropriate tools in place, we are not going to know 
how big it is and whether it is systemic, but it is happening.
    Mr. Meadows. Mr. Dickman.
    Mr. Dickman. I believe it is a systemic problem. Obviously, 
the Long Island Rail Road case was very unique because of the 
private pension that they had there after they have changed it. 
It was 20 and 50. You could retire at age 50 with a full 
pension, full private pension. It is now 20 and 55. But, after 
that, I mean, we have cases throughout the whole United States 
involving, obviously, not to the great degree because there 
were obviously three doctors that were involved with the 
majority of those cases. But going back to what I said 
previously, that is systemic because of the way the Board looks 
at what an occupation--the definition of an occupational 
disability is; that it can be one aspect of the job and not 
the--not doing the job, all the duties of the job. They hang 
their hat on just one aspect, and I still believe that the 
culture is that we are here to pay. And that culture has to 
change.
    And, in defense of the Chairman, even though he is the 
Chairman, it is Chairman in name only. As I said before, the 
big ticket items and the things that are really done in the 
Board are--the big items--are done between labor and management 
and as a function, as I have said, of collective bargaining 
between those two units throughout for the whole United States. 
That's fine. If that's what it is, that's what it is. But, you 
know, my job is to prevent and detect fraud, waste, and abuse.
    As I have said before, this system, this occupational 
disability program, has become an entitlement. Why not 
eliminate the facade of what an occupational disability is, 
make it an early retirement, as has been Stated, instead of 
going to this, you know, long, prolonged process of an 
individual being supposedly occupationally disabled. And the 
nature of business of work in the railroad industry, obviously, 
has changed dramatically from 1946 to the present. Previously, 
it was very labor intensive. It is not labor intensive anymore.
    Now, an individual who works on the railroad for--works for 
30 years can retire at age 60 with full benefits. Nobody else 
in the whole United States has that opportunity to retire at 
age 60 with full Social Security benefits. So that they do have 
unique, there are unique functions of it. That's fine. But I 
think that this particular portion of it has morphed into 
something that was not intended by Congress at the time that it 
was enacted in 1946.
    Mr. Connolly. Mr. Chairman, my time is up.
    And I thank you, Mr. Dickman, Mr. Bertoni.
    I guess what I'm not satisfied with, is, well, what are the 
lessons learned and how are we applying them to ensure that 
kind of fraud, systemic fraud, cannot recur? And I'm not 
getting, I don't feel reassured--not your fault, but, I mean, I 
don't feel reassured from the answers that we are headed in 
that direction. Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman.
    Mr. Schwartz, I'm going to recognize the gentlewoman from 
New York, Mrs. Maloney, but I want to say one thing is--I want 
to make it clear is--I don't necessarily agree with all of the 
recommendations that Mr. Dickman made but, certainly, with a 
lot of them. But, for instance, you know, there's some audit 
suggestions that he recommends that I don't necessarily agree 
with. And so what I'm asking you is to get serious because we 
have got an obligation to Mr. Dickman as the IG, to Mr. Bertoni 
as the GAO. Both of them are paid to make sure that the 
American taxpayers are protected. And, right now, you just 
heard the ranking member, I don't know that there is that 
confidence there, and so I need the message that you take back 
is this is not going to go away. We expect this to be addressed 
in very short order, or we will have another hearing. And, as 
uncomfortable as this may be today, it can be a lot more 
uncomfortable.
    I mean, I think history and YouTube will show you that this 
is a fairly benign hearing compared to some that happen here.
    And, with that, I would recognize the gentlewoman from New 
York, Mrs. Maloney, for 5 minutes.
    Mrs. Maloney. OK, first of all, I would like to apologize 
really to the ranking member and to the chair for not being 
here earlier, but I had to chair a Financial Services Committee 
for the Democrats and had a prior meeting earlier this morning, 
too, on income inequality, which is very disturbing. In the 
past couple years, the gap between the haves and have-nots is 
growing deeper and stronger. And it is not good for the rich or 
the poor, or the Black, the White, the Asian, or whatever. It 
is a very disturbing trend.
    And I want to go through some legislative changes that 
could reduce, possibly, disability fraud from the IG report.
    But I just want to preface it by saying that the world 
seems to be getting more unfair every day. Workers are being 
asked to give more and receive less in return, and some are 
equating the demise or the weakening of the labor movement to 
the reason that the gap is taking place in our--between our 
haves and have-nots.
    But I do say that it is rare for labor and management to 
have an equal stake in their working relationships. Usually it 
is not the case. And here, for once, the partnership between 
the Federal Government, the American worker, and the industry 
seems to be working OK. And I would like to get your remarks on 
it from all of the members here.
    But one of the recommendations that was a legislative 
recommendation--so I want to focus on the legislation 
recommendations since we are a legislative body--recommended 
that the three-member RRB structure be eliminated.
    So I would like to begin with the chairman of the RRB, Mr. 
Schwartz, on what do you consider to be the key strengths and 
weaknesses of this organizational structure, and do you agree 
with the IG recommendation that the structure be eliminated?
    Mr. Schwartz. I think that the strengths of the structure 
are that this program, the trust fund as we have talked 
earlier, is funded by rail management and rail labor. They have 
a seat at the table. I think that's the strength of it. I think 
the weakness of it is, at times, it can be unwieldy, you know, 
because there's three, you know, there's three different 
offices to deal with, but maybe that is by design. Maybe the 
unwieldiness is by design. Whoever set this up, set it up so 
there would be, at times, an acrimonious situation where people 
represent different constituencies. And so I would say that 
would be the minus.
    And as far as agreeing or not agreeing with it, I really 
can't weigh into that. I think it would be something that 
management, labor, and Congress would have to talk about.
    Mrs. Maloney. Well, how do you balance? You said basically 
that there is competing priorities or stakes from the three 
Board members. How do you balance the competing priorities of 
the three Board members in the decisionmaking process?
    Mr. Schwartz. Well, I think that what I meant by that is 
probably there is competing--with, you know, industry, they 
represent industry and labor. As far as the Board members are 
concerned, I think that they work well together, but the way I 
balance it is, sometimes I help with compromise. I mean, 
basically, there's times where they may not be too far apart, 
and I'm able to help out there.
    Mrs. Maloney. OK, Mr. Bertoni, you are representing the 
GAO, correct?
    Mr. Bertoni. Yes.
    Mrs. Maloney. And does the GAO or you have any objections 
to the current RRB structure, or what are your comments on it?
    Mr. Bertoni. We haven't done any analysis on the structure. 
So I really couldn't weigh in on that.
    Mrs. Maloney. And, Mr. Dickman, you recommended, I 
understand, that this be changed legislatively.
    Mr. Dickman. Yes.
    Mrs. Maloney. And could you give me your reasons?
    Mr. Dickman. Well, again, I think the proof is in, you 
know, the way the plan is administered. And I think, as I have 
Stated before, if you are going to implement change, real 
change there, a troika is not the way to do it, and that you 
need to give the power to the Chairman or the individual that 
has the power of a Chairman, not just in name only, so that he 
can unilaterally make these decisions.
    People are pulled three different ways at the Railroad 
Retirement Board as far as what are they supposed to be doing? 
How are they supposed to be administering not only the 
occupational disability but other plans that are done by the 
Railroad Retirement Board? And I see no reason why there 
shouldn't be a Chairman and have the advisory committee of an 
individual from railway labor and railway management. I mean, 
if they--you know, and as I Stated previously over and over 
again, the big ticket items are done by railway labor and 
management behind the scenes. And if that is the way it is 
then, you know, either eliminate the whole program or privatize 
the Railroad Retirement Board. And I know that is blasphemy for 
me as a, you know, inspector general to eliminate my own job. 
But it's--you have a trust which is a private entity now, which 
is an anomaly in all of Federal Government because it is not an 
instrumentality of the Federal Government, yet it is--the money 
is considered part of the Federal Government. But until there 
is some really substantial change where you allow the Chairman 
to take full responsibility for his actions, I don't think you 
are going to get any meaningful change, or unless Congress puts 
labor and management's feet to the fire and say: Enough is 
enough; we have got to make some substantial change here.
    Mrs. Maloney. And finally, if I could, Mr. Schwartz, can 
you discuss the potential merits or drawbacks of this 
recommendation, this basic change in the current RRB?
    Mr. Meadows. Mr. Schwartz, you can go ahead and answer 
that, but the gentlewoman's time is expired.
    Mrs. Maloney. And then my time is expired.
    Mr. Schwartz. All right, I think that the drawbacks would 
be that you would have an entity that is--well, you weren't 
talking about--you were talking about the one person instead of 
the three is what you are talking about? OK.
    Mrs. Maloney. Well, basically, I believe--I don't want to 
paraphrase.
    Mr. Schwartz. Sure.
    Mrs. Maloney. But I believe Mr. Dickman recommended that 
you basically privatize it, or do away with it completely.
    Mr. Schwartz. Oh, OK. Thanks.
    Mrs. Maloney. And put one person in charge. Am I saying 
what you are saying? Isn't that what you said?
    Mr. Dickman. Well, privatize was something totally 
different, but our recommendation as far as having just a 
Chairman and having a railway labor member, railway management 
member, just be part of an advisory committee to the Chairman.
    Mrs. Maloney. And the Chairman would come from where? 
What's your recommendation?
    Mr. Dickman. The Chairman would be as it is right now. They 
are all Presidential appointees.
    Mrs. Maloney. Presidential appointees. OK.
    Mrs. Maloney. But not the two other members. The labor 
member and the management member would drop down and just be 
advisors.
    Mrs. Maloney. And then the President would appoint someone. 
I think this is important to hear Mr. Schwartz' response to the 
recommendation.
    If we could have a little extra time, Mr. Chairman.
    Mr. Meadows. You can answer that.
    Mrs. Maloney. And then my time is up. Thank you. Thank you 
very much.
    Mr. Schwartz. I think that the drawback would be that 
industry and labor do--the trust fund is funded with industry 
and labor tax dollars, and I think that for them to have a seat 
at the table, I think you would end up with a system that there 
would be more commitment. I guess if you wanted to look at--if 
you want to look at just pure efficiency, it is sort of like 
the--what we were talking about on doing claims expediency 
instead of quality.
    I mean, if you want to look at sheer efficiency, things 
would go faster. There would be less consternation. And, well, 
there would be one decisionmaker, but also you wouldn't have a 
check and balance. So, I mean, I think that's--that's the 
thing. You might have a quicker process, a process where one 
person would be doing it, but you wouldn't have a check and 
balance over their funds. I think that would be the answer.
    Mr. Meadows. All right, I'm going to recognize the 
gentleman from South Carolina, but let me make sure I'm clear 
on your testimony.
    Mr. Schwartz. Yes, sir.
    Mr. Meadows. Your testimony is that the three-member Board 
has provided a good check and balance up to this point? Is that 
your testimony? I mean, we have seen guys doing all kinds of 
things, so the three-member Board is a good check and balance 
based on what we have already seen?
    Mr. Schwartz. What I'm saying is, is the Railroad 
Retirement Board does a lot of things. I mean, and I can say--
--
    Mr. Meadows. So it is a good check and balance in other 
areas?
    Mr. Schwartz. What I'm saying is, is our business of the 
Railroad Retirement Board, we have rail labor and rail 
industry, that both have a stake in it. They are stakeholders. 
And I think that an answer to your question is, it is a check 
and balance. I think, as far as occupational disability is 
concerned, we can do better.
    Mr. Meadows. All right. The chair recognizes the gentleman 
from South Carolina.
    Mr. Mulvaney. Thank you very much.
    And as we draw this to a close and try and focus on some 
things we can do to improve it, as we see the situation going 
forward, Mr. Dickman, let me go back and ask you to clarify 
again something you mentioned before at the close of, I 
believe, Mr. Mica's questioning, which was these rules, again, 
that we have talked about a little bit that seem stunningly 
unusual to me regarding this occupational disability, and I 
think you gave the example that, under the current system, if 
an employee has 15 duties, can establish that they cannot do 1 
of them, they qualify for benefits. Is that----
    Mr. Dickman. They can qualify for benefits. Yes.
    Mr. Mulvaney. Can qualify for benefits.
    Mr. Dickman. Yes, they can't perform one aspect of their 
job.
    Mr. Mulvaney. OK, and Mr. Schwartz, I think I will ask you 
again. This is something I asked you the first time around, 
which is, do you think we should change that?
    Mr. Schwartz. I think what we are doing right now is we 
are--labor and management are sitting down and they are talking 
about the vocational issues as far as job descriptions. What is 
happening is, we have outdated and very, very poor job 
descriptions. I mean, I think that is our first problem there. 
I think that it should be if they can't do their job.
    Mr. Mulvaney. OK, and let me come back to you, Mr. Dickman, 
because I think you said earlier that that is not defined in 
the rules and regs. Did I hear that correctly?
    Mr. Dickman. Yes.
    Mr. Mulvaney. Say that again then, please. What's not 
defined?
    Mr. Dickman. The one-aspect definition of occupational 
disability, that the individual can't do one aspect of their 
job. We haven't been able to find it anywhere in the rules and 
regulations.
    Mr. Mulvaney. Mr. Schwartz, should you have all come up 
with rules and regs on that by now? Is that one of the 
recommendations that anybody has made, or are you working on 
that on your own?
    Mr. Schwartz. The recommendation would be to--what he was 
just talking about, no, there is not a recommendation for that, 
to have one aspect of the job be your job. No, there is no 
recommendation on that.
    Mr. Mulvaney. OK, well, maybe that's something we could 
look at. Let me take the opportunity then with the couple of 
minutes I have left to do something we don't do nearly enough 
here, which is to thank you two gentlemen on the ends for what 
you do. We call you in--we know you have got a tough job, and I 
don't think we ever have enough time because we only have 5 
minutes--it is rare for us to have two rounds of questioning--
to say thank you for doing it because we could not do our job 
if it weren't for what you guys would do.
    And let me add to something that's apparently unusual in 
this town, which is, you have something that not that many 
people in this town have at the GAO, and the IG's Office. And 
that is you have a bipartisan group of supporters on Capitol 
Hill who like what you do and want to help you do what you do. 
Democrats and Republicans may have very different ideas about 
what government should do, but we both hate bad government. 
Good governance is something that actually binds the two 
parties, and I think we made some small progress on that in the 
last couple of months.
    So I say that to you because I want to say this: If you 
have difficulties going forward at the RRB, or at anybody that 
you happen to oversee and be involved with, let us know. You 
don't have to sit there and toil in anonymity and just go home 
and complain that you can't do anything at work. Call us and 
let us know because this is the type of thing that is getting 
more and more attention, and I think rightly so.
    The converse of that is that anybody who opposes you, slow-
plays you, ignores you, doesn't implement your recommendations 
in a timely fashion, has something that is just as rare, which 
is, they have a common--they have a bipartisan enemy on Capitol 
Hill.
    And I think the days of being able to ignore these folks, 
Mr. Schwartz, and this is not to you personally--OK, it is to 
you personally, but also to anybody else who has to deal with 
these folks--is the days of being able to ignore these folks 
are gone. And we intend to hold you and folks who have to deal 
with these folks accountable for when you ignore what they 
suggest.
    So, with that, I appreciate the opportunity for the hearing 
today, Mr. Chairman, and I yield back the balance of my time.
    Mr. Meadows. I thank the gentleman from South Carolina for 
remaining over and not going back to God's country quickly so 
he could participate.
    The chair recognizes the gentleman from Wisconsin, Mr. 
Grothman.
    Mr. Grothman. Yes, I'm going to followup on what I talked 
to you before about, Mr. Schwartz.
    Mr. Schwartz. Yes.
    Mr. Grothman. I mean, my concern is, is there a culture of 
disability developing within the railroad system. Okay? You 
know, and that is a problem you have all around our society in 
which people, you know, begin to look for the--look to say they 
are disabled when they aren't.
    How long has this current system been in existence, Mr. 
Schwartz?
    Mr. Schwartz. Since the 1940's.
    Mr. Grothman. The 1940's, OK. Can you go back and tell us, 
say, 1960, 1970, 1980, the percent of people who were filing 
for disability every year compared to, say, 2005, 2010?
    Mr. Schwartz. No, but I can go back to--like I said, if you 
even go back 10 years ago, you had 38 percent of the people 
getting disability awards. And, last year and in 2013, you had 
18 percent getting disability.
    Mr. Grothman. It is a misleading total, though. What you 
are doing there is you are comparing disability awards.
    Mr. Schwartz. Applying for--well, I would have to get the 
applications. But I can tell you that if you go back to 2000--
well, that's the only way to keep it is on awards. But----
    Mr. Grothman. No, no. What we are looking for is of the 
total people in the system, how many people are claiming they 
are disabled in any given year?
    Mr. Schwartz. What I can do is, if you can--I can provide 
something for you for the record if I get the question exactly 
framed as you would like, we can get our actuary to give you 
numbers, whatever you want.
    Mr. Grothman. I would hope you would have it, but OK. You 
have a given number of people who every year are part of the 
system, right, paying into the system, working in the railroad. 
OK, and every year, a given percentage of those people say: I 
am disabled; I am entitled to something. OK?
    And the question we are trying to get at, first of all, is, 
what is that percentage, say, in the year 2010, compared to the 
year 1990 or 1980? The question is, are we developing a culture 
in which people are saying, ``I'm disabled''? That's what we 
are trying to get.
    Mr. Schwartz. OK, we can get that for you.
    Mr. Grothman. OK, and I would also like to know if you can 
compare that to other occupations. OK? Disability compared to--
I know they break these down by occupations by State, like 
maybe people working in a factory, you know, maybe policemen, 
whatever. So we can compare the number of people who are saying 
they are disabled in the railroad industry compared to other 
places.
    Mr. Schwartz. I understand where you are going with that.
    Mr. Grothman. That's what we are trying to see here. OK?
    We also like to know, you look, when we talk about this 
high approval rate in which everybody says ``I'm disabled,'' 
you know, they wave you through; sure, you are disabled. If you 
could give us those numbers and maybe I would think yourself 
would want to compare not only the Social Security disability, 
but maybe people who say they are disabled in other occupations 
as well. You know, look at individual cities when they say 
maybe union disability, you know, police and fire, that way, 
percentage of people that you are approving compared to other 
groups.
    Mr. Schwartz. We're--OK, we will do the best we can on 
that. And if--and we can get ahold of you if we don't have the 
exact question framed, and we will do the very best we can to 
get you those numbers, sir.
    Mr. Grothman. And, see, it is an important thing because, 
you know, this money is coming from somewhere. OK, we are asked 
to do things like subsidize. I don't know whether Amtrak is 
part of this, but, I mean, insofar as we are just bleeding 
money here, that's a problem, and not to mention, it gets to 
the general overall decline of society in which people are able 
to say, ``Guess what, I'm disabled,'' and people are accepting 
it.
    And there are other areas of society that are going to have 
to look at Social Security disability. But, from the testimony 
I hear today, I am gathering there is that culture in the 
railroad industry that says: You know, I'm going to say I'm 
disabled. And we want to see if that's true.
    Mr. Schwartz. I understand.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Alabama, Mr. 
Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    And I'm going to thank the gentleman from Wisconsin for 
asking for the number of people added to the disability rolls 
each year, particularly since I asked that question in my 
letter. And you did not provide that. So I'm very pleased to 
know that you do have that information and that you will 
provide it at least to Mr. Grothman.
    Another thing that I wanted to bring up, in your response 
to me, you say it is rare for someone who has left the industry 
for an extended--for self-employment for them to become 
entitled to an occupational disability annuity, yet in the 
inspector general's written testimony, it points to an example 
in the agency's disability claims manual where an individual 
left the railroad employment for 16 years but still retains 
their current connection with the railroad industry. That may 
be--even if that's the only example, does it make sense an 
individual can be able to claim an occupational disability from 
a job they haven't held for 16 years?
    Mr. Schwartz. Well, current connection was put into place 
actually to prevent people--they wanted to make sure that 
people had a current connection to the railroad. That is--it's 
very rare, and he did put an example in there that was in the 
manual. That's exactly true. It is very rare that would happen.
    Mr. Palmer. Okay, I want to ask you something else in the 
context of my letter. I asked for copies of all of the 
correspondence, including emails, related to the RRB's decision 
to utilize very specific language in their termination letters 
to the Long Island Rail Road occupational disability 
annuitants. You attached a February 1, 2013, memo from 
Inspector General Dickman regarding this topic. Is this the 
only communication that exists--that exists regarding the 
subject matter? And if not, why didn't you provide the 
information I requested?
    Mr. Schwartz. I think you were referring to Mr. Dickman 
asking us not to go back and recover claims, and that was the 
correspondence we had for that, the letter that he had sent 
that said not to recover. Which question are you talking about? 
I have to look at the question here.
    Mr. Palmer. I asked for copies of all correspondence, 
including emails, relating to the decision to utilize very 
specific language in the termination letters. I'm going to ask 
you, again, to provide that information and provide it for the 
committee.
    Mr. Schwartz. Okay.
    Mr. Palmer. I want to move on.
    The Board's response indicated--and this is your response 
to my letter to question nine--that there was a recent meeting 
with Dr. Robert McLellan, the chief of the Occupational & 
Environmental Medical Section at Dartmouth-Hitchcock Medical 
Center, associate professor at the Geisel School of Medicine at 
Dartmouth. In June 2014, the inspector general had forwarded 
you a lengthy list of poignant recommendations authored by Dr. 
McLellan. Why did it take the agency 9 months to contact him?
    Mr. Chairman, if he is----
    Mr. Schwartz. I think that what it comes down to is, we 
were looking at all of the possibilities to improve our 
disability program. We want to enhance it. We want to make it 
better. We want to change the way we do things. Dr. McLellan is 
one of the people we thought we should talk to, as suggested by 
Mr. Dickman, to get his ideas on how to do that.
    Mr. Palmer. Well, the last thing that I want to ask is, 
what actions will the Board take regarding his recommendations? 
Because, as Mr. Connolly has said, and as Mr. Meadows has said, 
I think all of us here, our objective is good government. Our 
objective is to do what is best for the employees of the 
railroad, and I think, in that regard, implementing these 
recommendations--you have heard from Mr. Bertoni. You have 
heard from Mr. Dickman. I want to know if--what you intend to 
do? If you intend to implement these recommendations? And I 
have got one last question.
    Mr. Schwartz. All five of Mr. Bertoni's recommendations we 
intend to implement. Many of Mr. Dickman's we intend to 
implement. And, as I said, Mr. Dickman and I will be sitting 
down and going through them and making sure he has a response 
to all of his recommendations.
    Mr. Palmer. I'm good with that. Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman for his insightful 
questions.
    And I would like to thank all of the witnesses for you 
taking the time today to answer these.
    I want to close with these very brief remarks. And that is, 
Mr. Bertoni, Mr. Dickman, we have had sworn testimony today 
that Mr. Schwartz--and I assume I'm speaking on behalf of the 
other two Board members that are not here, that they 
acknowledged that you are here representing the Board--has 
agreed to work with the two of you in terms of implementing 
those recommendations.
    So here is what I would ask of you, Mr. Schwartz. We want--
we want real progress.
    Mr. Schwartz. Yes.
    Mr. Meadows. That is made in very short order. A 9-month, 
10-month delay is not good enough. Much of what you talked 
about in your opening testimony sounded great, but it gave very 
little incentives in terms of denying claims that are 
fraudulent. It gave very little in terms of going back to 
revisit those who are getting benefits that may have gotten 
benefits for something that was temporary in nature; i.e., a 
broken arm where they would have been awarded some kind of 
disability, and yet, from the documents we have, there is no 
revisit of them that that arm could heal. They could continue 
to receive benefits.
    And, with that in mind, Mr. Schwartz, what I don't want to 
happen is for another New York Times reporter to be waiting for 
a tee time and find somebody teeing off ahead of them getting 
full retirement. And, under your scenario, wouldn't you agree 
that today that some of the egregious things that would happen 
could still be happening. Wouldn't you agree with that?
    Mr. Schwartz. I would say, Mr. Chairman, that we need to 
change our culture absolutely. We need to change the way we do 
business, and the way things are right now today without these 
extra things, without the quality assurance, without the extra 
doctors, and those things, something could be happening, yes.
    Mr. Meadows. So it could still be happening.
    Mr. Schwartz. Yes.
    Mr. Meadows. So here is what I ask of you: In the next 120 
days from this hearing, I want to make sure that there is 
correspondence with both the GAO and the inspector general and 
this committee.
    Mr. Schwartz. OK.
    Mr. Meadows. And I want tangible--this is what we have 
implemented, and these are the results. And then, from there, 
we are going to revisit this entire thing.
    Mr. Schwartz. I understand.
    Mr. Meadows. Another 90 days after that, assuming that we 
made real progress, we won't have to have another hearing. 
Assuming that you continue to give the documents the way that 
Mr. Palmer has asked for, the committee has asked for, and you 
have assured me, we won't have to have another hearing. I don't 
want another hearing. All I want you to do is fix the problem 
and make sure that our railroad workers have the safety net 
that they want and need and deserve and have paid for, and yet, 
the bad actors are rooted out.
    From an employee standpoint, I am going to administer what 
I call the Forrest Jarrett test. He is a long--loves the rail, 
has retired, and it is his life. And so I'm going to look at it 
from his perspective from an employee standpoint. So I will 
have that balance.
    But I have your assurances, is that correct?
    Mr. Schwartz. Yes.
    Mr. Meadows. All right. So, with that, if there is no 
further business, without objection, this subcommittee stands 
adjourned.
    [Whereupon, at 12:57 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               
  

                                 [all]
</pre></body></html>
